Audit Report




OIG-13-037
SAFETY AND SOUNDNESS: OCC Identification of Emerging
Risks
April 9, 2013




Office of
Inspector General
DEPARTMENT OF THE TREASURY
Contents

Audit Report

  Background ................................................................................................ 3

  Results of Audit .......................................................................................... 4

      OCC Had Processes to Identify Emerging Risks .......................................... 4

      OCC’s Processes and Actions Did Not Prevent Bank Failures ........................ 8

      Current Risks to Financial Institutions’ Safety and Soundness ...................... 12

  Recommendations ....................................................................................... 13

Appendices

  Appendix     1:     Objectives, Scope, and Methodology ......................................              16
  Appendix     2:     Management Comments ........................................................           17
  Appendix     3:     Major Contributors to This Report ...........................................          19
  Appendix     4:     Report Distribution ................................................................   20

Abbreviations

  BIT                 bank information technology
  CRE                 commercial real estate
  DRC                 district risk committee
  EIC                 examiner-in-charge
  GBFA                global banking and financial analysis
  MBRC                midsize banking risk committee
  NRC                 national risk committee
  OCC                 Office of the Comptroller of the Currency
  SM                  Supervisory Memorandum




                      OCC Identification of Emerging Risks (OIG-13-037)                                  Page i
         This page intentionally left blank.




OCC Identification of Emerging Risks (OIG-13-037)   Page ii
                                                                                        Audit
OIG
The Department of the Treasury
                                                                                        Report
Office of Inspector General




                       April 9, 2013

                       Thomas J. Curry
                       Comptroller of the Currency

                       This report presents the results of our audit of the Office of the
                       Comptroller of the Currency’s (OCC) processes to identify emerging
                       risks to financial institutions’ safety and soundness. We included
                       this audit in the Office of Inspector General Fiscal Year 2011
                       Annual Plan based on the results of our material loss reviews of
                       failed institutions where we found that OCC did not always identify
                       and address risks to financial institutions in a timely manner. 1
                       Additionally, we had not previously reviewed this area of OCC’s
                       operation.

                       Our audit objective was to determine how OCC processes identify
                       emerging risks to financial institutions’ safety and soundness and
                       then translate the risks identified into action. We interviewed OCC
                       personnel involved in identifying emerging risks and reviewed
                       relevant OCC documentation. We conducted our audit fieldwork
                       from October 2010 through May 2012. Appendix 1 contains a
                       more detailed description of our objectives, scope, and
                       methodology.

                       In brief, we found that OCC had processes to identify emerging
                       safety and soundness risks to financial institutions and took actions
                       to address those risks. However, the processes and actions did not

1
  Section 38(k) of the Federal Deposit Insurance Act requires that our office perform a material loss
review of a failed institution supervised by OCC whenever the loss to Deposit Insurance Fund is
material. The objectives of a material loss review are to determine the causes of the failure; assess the
supervision of the institution, including the implementation of the prompt corrective action provisions of
section 38; and make recommendations for preventing such a loss in the future. Effective July 21,
2010, section 38(k) defines a loss as material if it exceeds $200 million for calendar years 2010 and
2011, $150 million for calendar years 2012 and 2013, and $50 million for calendar years 2014 and
thereafter (with a provision that the threshold can be raised temporarily to $75 million if certain
conditions are met).


                       OCC Identification of Emerging Risks (OIG-13-037)                            Page 1
                       prevent the failures of 75 OCC-regulated banks from 2008 through
                       May 2012. 2 Many of the banks that failed during this timeframe
                       were susceptible to the same risks that gave rise to the bank
                       failures of the 1980’s and 1990’s, namely weaknesses with bank
                       board of directors or management and high concentrations in
                       commercial real estate (CRE) loans. We noted that OCC issued
                       guidance in September 2011 incorporating lessons learned from
                       the recent failures, including the need to assign adverse ratings
                       related to bank management for poor or missing risk management
                       practices before problems affect a bank’s financial condition. With
                       respect to current risks, while concentrations remain a concern,
                       OCC identified reliance on fees and exotic instruments 3 as the
                       greatest risk to banks’ safety and soundness. 4 We are
                       recommending that OCC (1) periodically assess the effectiveness
                       of the September 2011 supervisory guidance (Supervisory
                       Memorandum (SM) 2011-5) and (2) ensure that banks and
                       examiners are responding appropriately to identified risks.

                       Management Response In a written response, which is included as
                       appendix 2, OCC agreed with our recommendations. OCC stated it
                       will periodically assess the effectiveness of the SM 2011-5
                       guidance and will add explicit statements to its quality assurance
                       conclusion memos that specifically address whether examination
                       staff are adhering to the guidance provided in SM 2011-5.
                       Additionally, OCC stated that it will ensure that identified risks
                       continue to be addressed in the individual supervisory strategy for
                       each institution through its quality control and quality assurance
                       processes.

                       In its response, OCC also commented that its goal in supervising
                       national banks and federal savings associations is to ensure they
                       operate in a safe, sound, and compliant manner. This goal,
                       however, is not synonymous with a goal of preventing all bank
                       failures. While examiners work diligently to identify potential

2
  As of May 2012, OCC supervised approximately 2,000 national banks and federal savings
associations.
3
  Exotic instruments can include nontraditional mortgage loans; hedging products such as prepayment
swaps and cash-flow swaps; and complex, unusual and specific derivative contracts that depend on the
value of some underlying asset or defined set of assets.
4
  According to OCC, after we completed our fieldwork, strategic risks associated with banks’ entry into
new business products generally posed the greatest risk to banks’ safety and soundness.


                       OCC Identification of Emerging Risks (OIG-13-037)                         Page 2
             problems at an early stage so that bank management can take
             corrective actions, there will always be cases where a bank’s
             strategic and management choices are such that rehabilitation of
             the bank is not possible. In those situations, OCC’s goal is to effect
             early and least cost resolution of the institution in an orderly
             manner that minimizes the impact on depositors and customers.

             OIG Comment We consider the actions committed to by OCC as
             responsive to our recommendations. We do recognize that it is not
             possible to prevent all bank failures. As discussed in our report, the
             number and quick succession of failures during the recent
             economic crisis was alarming, especially in light of the fact that
             OCC had previously identified and dealt with the very same
             problematic risks and ramifications. A recurring theme in our
             reviews of bank failures during the crisis was that OCC should
             have acted sooner to prevent some of the unsafe and unsound
             management and high concentration practices.


Background
             OCC’s primary mission is to charter, regulate, and supervise
             national banks and federal savings associations. It also supervises
             the federal branches and agencies of foreign banks. OCC’s stated
             goal in supervising banks and federal savings associations is to
             ensure that they operate in a safe and sound manner and in
             compliance with laws requiring fair treatment of their customers
             and fair access to credit and financial products. To accomplish its
             mission, one of OCC’s strategic objectives is to identify emerging
             risk areas, including those related to operational and technology
             related vulnerabilities, and adjust supervisory strategies and
             activities as appropriate.

             OCC supervises about 1,400 insured national banks, and in
             July 2011, pursuant to P.L. 111-203, it assumed regulatory
             responsibilities for about 640 federal savings associations that had
             been supervised by the former Office of Thrift Supervision (OTS).

             A bank’s board of directors and management are responsible for
             establishing and maintaining effective internal control that
             meets statutory and regulatory requirements. During an



             OCC Identification of Emerging Risks (OIG-13-037)                Page 3
                       examination, OCC evaluates a bank’s loan policies and risk
                       management systems as part of its overall assessment of the
                       bank’s internal control. 5 If OCC determines that a bank’s
                       internal control needs improvement, it may address the
                       weakness with a matter requiring attention (MRA) and/or by
                       downgrading a component or components of the CAMELS
                       rating. 6 An MRA identifies a bank practice noted during an
                       examination that deviates from sound governance, internal
                       control, and risk management principles, which may adversely
                       affect the bank’s earnings or capital, risk profile, or reputation if
                       not addressed. It may also result when the examiner identifies
                       substantive noncompliance with laws and regulations, internal
                       policies or processes, OCC supervisory guidance, or conditions
                       imposed in writing in connection with the approval of any
                       application or other request by a bank.


Results of Audit
                       OCC Had Processes to Identify Emerging Risks to
                       Financial Institutions’ Safety and Soundness

                       OCC’s processes to identify emerging risks included multiple
                       internal committees and other working groups that met regularly to
                       discuss risks to banks’ safety and soundness. To address these
                       risks, OCC adjusted supervisory strategies as needed and
                       communicated risk information to OCC examiners and banks.

                       National Risk Committee (NRC) NRC met quarterly to discuss
                       current and emerging risk issues, coordinated with other
                       supervisory and policy risk groups, and made recommendations for
                       appropriate supervisory responses to risks it identified. NRC
                       members included OCC deputy comptrollers, assistant deputy

5
  Internal control is the systems, policies, procedures, and processes affected by the board of directors,
management, and other personnel to safeguard bank assets, limit or control risks, and achieve a bank’s
objectives.
6
  Federal banking agencies use the Uniform Financial Institutions Rating System, or “CAMELS,” to
assign composite and component ratings to financial institutions. An institution’s composite CAMELS
rating integrates the ratings from six component areas—capital adequacy, asset quality, management,
earnings, liquidity, and sensitivity to market risk. The ratings range from 1 to 5 with 1 being the highest
rating and least supervisory concern.


                       OCC Identification of Emerging Risks (OIG-13-037)                             Page 4
                        comptrollers, district risk committee chairs, and OCC counsel. NRC
                        prepared quarterly reports called risk radar screens that ranked
                        risks to the national banking system according to level of severity.
                        The radar screen risk categories included credit, operational,
                        reputation, strategic, interest rate, and liquidity. In response to
                        risks it identified, NRC provided additional general guidance to OCC
                        examiners through periodic supervisory communications that
                        highlighted emerging risks, summarized the current business
                        environment, and provided supervision tips on examination issues.
                        For example, a 2006 message highlighted CRE as a significant
                        concentration for community and midsize banks and stressed the
                        need for examiners to do cash flow testing. Another example was
                        a supervision tip issued in 2009 that advised bank examiners on
                        when it was permissible for banks to incur additional expenses on
                        other real estate owned. 7

                        Since OCC is now responsible for supervising federal savings
                        associations, OCC officials told us the NRC planned to examine the
                        differences between the risk profiles of federal savings associations
                        relative to community banks, risk management capabilities of
                        federal savings associations, as well as any differences in risk
                        oversight practices between OCC and the former OTS.

                        Additionally, OCC officials told us that in November 2011, OCC
                        distributed its first Semiannual Risk Perspective Report to
                        examiners and, on a more limited basis, to bankers. The report
                        included the NRC’s views of existing or emerging threats to the
                        banking system along with supporting data and analysis. According
                        to OCC, the report was designed to foster dialog within the
                        industry and between bankers and examiners on emerging risks. In
                        July 2012, OCC published its Spring 2012 Semiannual Risk
                        Perspective Report and made it available to the public on its
                        website.

                        District Risk Committees (DRC) and Midsize Banking Risk
                        Committee (MBRC) served as communication links to NRC. There
                        were four DRCs – central, northeastern, southern, and western –

7
 Other real estate owned are real properties that an insured depository institution acquired that do not
constitute its facilities. Such properties include real estate acquired in full or partial satisfaction of a
debt previously contracted (e.g., through foreclosure on a mortgage) and are subject to specific holding
periods, disposition requirements, and appraisal requirements.


                        OCC Identification of Emerging Risks (OIG-13-037)                             Page 5
                        representing each of the OCC district offices. DRC members
                        typically included a combination of district associate- and assistant-
                        deputy comptrollers, senior thrift advisors, analysts, field
                        examiners, and lead experts in commercial credit, asset
                        management, retail credit, compliance, bank information
                        technology (BIT), and capital markets. MBRC addressed risks that
                        were specific to midsize banks. 8 MBRC members included the
                        associate- and assistant deputy comptrollers for midsize banks and
                        lead experts in the areas of commercial credit, asset management,
                        retail credit, compliance, BIT, capital markets and enterprise
                        governance/operational risk.

                        The DRCs met on a quarterly basis and issued radar screens to
                        inform district management of existing and potential risks, as well
                        as to propose action to NRC for addressing those risks. Although
                        the DRCs did not issue official OCC examiner guidance, the
                        committees communicated to examiners how to address risks
                        through the issuance of job aids and emerging risk alerts. For
                        example, in May 2009, the southern DRC issued an emerging risk
                        alert titled Property Tax Loans to examiners highlighting the risks
                        associated with bank loans for property taxes owed. 9 The DRCs
                        also alerted banks to existing and potential risks in the banking
                        industry. For example, in December 2010, the western DRC sent a
                        letter to banks with concentrations in agriculture loans stating that
                        agricultural-related lending posed a significant systemic risk in the
                        district. The letter reminded those banks, among other things, that
                        they needed to have board-approved policies specific to agricultural
                        lending that established risk tolerances and limits in detail and
                        underwriting guidance by product type. Similarly, MBRC provided
                        supervisory risk radar screens for midsize banks and periodically
                        conducted roundtables with midsize bankers regarding risk areas.
                        For example, in October 2010, the MRBC conducted a 2-day
                        roundtable on retail credit.

                        Other Committees OCC had three additional committees that met
                        to discuss existing and emerging risks: the National Commercial


8
  Midsize banks generally include companies with national bank assets totaling between $10 billion and
$50 billion, either in a single charter or aggregated among several charters.
9
  According to the risk alert, property tax loans have a high level of credit risk. These loans are made to
borrowers to address tax liens that resulted from nonpayment of taxes.


                        OCC Identification of Emerging Risks (OIG-13-037)                            Page 6
                      Credit Committee, the National Retail Credit Committee, and the
                      Committee on Consumer Issues. These committees met quarterly
                      to discuss existing and emerging trends in the credit and consumer
                      protection areas within the national banking system and advised
                      the NRC on related risks and trends.

                      Large Bank (LB) Network Groups Established to identify and
                      communicate emerging risks and provide supervisory strategy
                      guidance to examiners in OCC’s Large Bank Supervision program, 10
                      there were eight LB network groups: commercial credit, retail
                      credit, mortgage banking, capital markets, BIT, compliance, asset
                      management, and operational risk. Membership in the network
                      groups was open to all large bank supervision examiners; an
                      examiner-in-charge from the OCC’s Large Bank program sponsored
                      each group. The network groups issued annual supervisory strategy
                      guidance that alerted examiners to systemic and emerging risks
                      and recommended supervisory strategies to address those risks.
                      For example, the commercial credit network group issued
                      supervisory strategy guidance that outlined risk issues examiners
                      should consider during large bank examinations in fiscal year 2011,
                      including high-risk income-producing CRE lending, credit
                      underwriting, and allowance for credit losses. The guidance the
                      network groups provided might outline a series of emerging risks
                      that would be relevant for all large bank teams or it might only be
                      relevant to a segment of the large bank population.

                      Global Banking and Financial Analysis (GBFA) Group Comprised of
                      OCC economists, the GBFA group performed various types of
                      analysis, such as modeling and stress testing using historical bank
                      data, and presented its findings to NRC. One example of a GBFA
                      group report was the annual Global Outlook, which identified what
                      it believed were the most important domestic and international
                      economic and financial risks, and provided estimates of the
                      potential consequences to national banks under scenarios that
                      reflected those risks. In addition, in June 2006, GBFA gave a
                      presentation to NRC titled “Condition of the Banking Industry” that
                      described the rapid increase in CRE loan concentrations in
                      community and midsize banks during the first quarter of 2006. The

10
 Large banks include the largest national banking companies, with assets of more than $50 billion,
which generally are involved in the most complex activities and operate over wide geographic areas.


                      OCC Identification of Emerging Risks (OIG-13-037)                          Page 7
presentation pointed out that heavy reliance on CRE in the past
resulted in serious problems, such as in the northeast in the early
1990s.

Interagency Collaboration OCC officials told us that the risk
committees and groups described above collaborated with other
regulatory agencies such as the Board of Governors of the Federal
Reserve System (FRB) and Federal Deposit Insurance Corporation
(FDIC) to identify emerging risks to national banks. Additionally,
pursuant to P.L. 111-203, the Financial Stability Oversight Council
(FSOC) was created to share collective accountability for
identifying risks and responding to emerging threats to financial
stability. The Comptroller of the Currency is a voting member of
FSOC and senior OCC staff are involved in FSOC’s Systemic Risk
and other operating committees.

OCC’s Processes and Actions Did Not Prevent Bank
Failures

As stated above, OCC’s goal in supervising banks and federal
savings associations is to ensure that they operate in a safe and
sound manner. OCC-regulated banks that failed from 2008 through
May 2012 were determined to be transacting business in an unsafe
or unsound condition, and thus OCC recommended they be closed
and FDIC be appointed receiver.

Although OCC had a number of established committees and
working groups set up to identify and respond to emerging risks to
financial institutions, OCC’s processes and actions did not prevent
the failure of 75 OCC-supervised institutions. Additionally, many of
the banks that failed during the period we reviewed were adversely
affected by the same risks OCC identified as causes of the many
bank failures that occurred during the 1980s and 1990s:
management-related weaknesses such as inadequate policies and
risk management systems, and excessive concentrations in CRE
loans.

Regarding the bank failures in the 1980’s, a June 1988 OCC study
Bank Failure – An Evaluation of the Factors Contributing to the
Failure of National Banks found that the primary causes of failures



OCC Identification of Emerging Risks (OIG-13-037)               Page 8
                       during that period were (1) inadequate loan policies, problem loan
                       identification systems, and systems to ensure compliance with
                       internal policies and banking law; (2) bank directors' or
                       management's overly aggressive behavior resulting in imprudent
                       lending practices, such as unwarranted concentrations of credit to
                       one industry and excessive loan growth; and (3) insider abuse and
                       fraud involving directors, senior management, or principal
                       shareholders. Additionally, OCC’s Quarterly Journal published in
                       June 1999 stated that the primary cause of bank failures in the
                       late 1980’s and early 1990’s was excessive concentrations of real
                       estate loans, and that this was a lesson that bankers and regulators
                       were determined not to forget. 11

                       Over the years, OCC has issued guidance to banks and examiners
                       on asset concentration risk. 12 As early as 1990, OCC’s
                       examination handbook emphasized the need to maintain a high-
                       level of supervision over credit concentrations. OCC Bulletin
                       1995-7, Identifying Credit Concentrations, stated that banks with
                       significant exposure to risks of concentrations of credit or those
                       not adequately managing concentration risks require capital in
                       excess of regulatory minimums. Interagency guidance on CRE
                       concentration risk management issued in 2006 included risk
                       management practices that a bank should employ when it has CRE
                       concentrations and stated that banks may be identified for further
                       supervisory analysis if total CRE lending is above 300 percent of
                       risk-based capital. 13

                       From January 2008 through May 2012, 75 OCC-regulated banks
                       failed. This number represents 68 national banks and 7 federal

11
   The last issue published March 2007, the Quarterly Journal served as a record for significant actions
and policies of the OCC.
12
   OCC defines a concentration asset as a type of asset that represents 25 percent or more of a bank’s
risk-based capital.
13
   In December 2006, OCC, FRB, and FDIC jointly published Guidance on Concentrations in Commercial
Real Estate Lending, Sound Risk Management Practices (Guidance). The Guidance reminded institutions
that strong risk management practices and appropriate levels of capital are important elements of a
sound CRE lending program, particularly when an institution has a concentration in CRE loans. The
Guidance did not establish specific CRE lending limits; rather, it promoted sound risk management
practices and appropriate levels of capital to enable institutions to continue to pursue CRE lending in a
safe and sound manner. The sophistication of an institution’s CRE risk management processes should
be appropriate to the size of the portfolio, as well as the level and nature of concentrations and the
associated risk to the institution.


                       OCC Identification of Emerging Risks (OIG-13-037)                           Page 9
                       savings associations supervised by the former OTS until July 2011.
                       As of May 2012, we completed reviews of 60 of these failed
                       banks (57 national banks and 3 federal savings associations). We
                       concluded that 57 of the 60 banks (54 national banks and 3
                       federal savings associations) failed due to real estate loan
                       concentrations, board of directors or management weaknesses, or
                       both. 14 Examples of these board and management weaknesses
                       included inadequate controls over loan administration and overly
                       aggressive growth strategies. In September 2011, we issued a
                       joint report with FDIC and FRB Offices of Inspector General that
                       evaluated regulators’ use of Prompt Regulatory Action during the
                       recent financial crisis. That report also discussed the similarities
                       between the bank failures from 2008 to 2011 and those that failed
                       in the 1980’s and 1990’s. 15, 16

                       As noted above, OCC identified the same risks to banks as a result
                       of the bank failures from the 1980s and 1990s, and its
                       examination handbook provided guidance for addressing them.
                       Furthermore, as discussed above, the GBFA group notified NRC in
                       June 2006 that concentrations in CRE were increasing and that
                       similar conditions caused serious problems for CRE-focused banks
                       in the early 1990s. OCC officials stated that the agency’s goals are
                       (1) to identify a bank’s problems early when there may still be time
                       to rehabilitate the bank and (2) when that is not possible, to seek
                       early/orderly resolution through a sale/merger or other actions to
                       minimize losses to the FDIC’s Deposit Insurance Fund and
                       disruption to customers, communities, and the larger financial
                       sector.

                       While it is not possible to prevent all failures, the number and quick
                       succession of failures during the recent economic crisis was
                       alarming, especially in light of the fact that OCC had previously

14
   Our reviews for eight banks that failed between February 2012 and May 2012 had not been
completed as of May 2012, and seven bank failures did not require a review by our office.
15
   Evaluation of Prompt Regulatory Action Implementation (OIG-CA-11-008), September 30, 2011.
16
   The report noted that the aggregate estimated losses to the Deposit Insurance Fund during the period
2008 to 2011 for failed banks supervised by the four federal banking agencies was $82.4 billion or
28.8 percent of bank assets, as of May 2011. The individual estimated losses and loss rates were for
OCC, $9.5 billion and 22.2 percent, respectively; for OTS, $28.2 billion and 27.5 percent, respectively;
for FDIC, $38.9 billion and 31.0 percent, respectively; and for FRB, $5.8 billion and 28.9 percent,
respectively.


                       OCC Identification of Emerging Risks (OIG-13-037)                         Page 10
identified and dealt with the very same problematic risks and
ramifications. Although OCC’s examination handbook provided
guidance on how to address these risks, a recurring theme in our
reviews of bank failures during the crisis was that OCC should
have acted sooner to prevent some of the unsafe and unsound
management and high concentration practices.

According to OCC, it did take steps to address increasing CRE
concentrations in community and midsize banks. These actions
included (1) a series of targeted examinations at banks that were at
significant risk due to the nature and scope of their CRE activities,
(2) the development of tools that bankers could use to stress test
certain types of acquisition and development CRE transactions, and
(3) additional supervisory guidance and nationwide teleconferences
on CRE lending issues.

In September 2011, OCC issued a supervisory memorandum to
examiners, drawing upon lessons learned from the recent financial
crisis. SM 2011-5, Examiner Guidance on Using the Risk
Assessment System (RAS) was intended to enhance examiners’
use and communication of the RAS. The RAS is a tool used by
examiners to identify, communicate, and affect appropriate
responses to the buildup of risks or deficiencies in risk management
systems at OCC-supervised institutions. Regarding follow through
on corrective actions related to risk management systems, the
memorandum notes that too often, the CAMELS management
component rating reflected banks’ management and board of
directors’ cooperation and commitment to correct deficiencies
without demonstrated performance. The memorandum goes on to
state that the management component rating should focus on
actions and results, rather than commitments. Finally, the
memorandum states that assigning an adverse rating to the
management component based on poor or missing practices,
before problems are evident in a bank’s financial condition, is one
of the tenets of sound and forward-looking supervision and an
important lesson learned from the recent financial crisis. We believe
the guidance in September 2011 is on target with respect to its
renewed emphasis on the management component being a leading
indicator. That said, it is too soon to tell how effective the
guidance and its implementation will impact banks’ risk
management practices going forward.


OCC Identification of Emerging Risks (OIG-13-037)             Page 11
                       Current Risks to Financial Institutions’ Safety and
                       Soundness Identified by OCC

                       According to NRC’s April 2012 risk radar screen, the greatest risk
                       to banks’ safety and soundness was their reliance on fees and
                       exotic instruments, 17 which OCC categorized as a strategic risk as
                       low interest rates and a weak credit demand environment have
                       decreased net interest margins. 18 To address this risk, during its
                       examinations, OCC plans to evaluate reliance on fee income as part
                       of the concentration of risk assessment, and OCC is encouraging
                       banks with revenue concentrations to consider diversification
                       options. OCC also plans to evaluate bank strategic plans for
                       changing business models and introduction of significant new
                       products and services. Furthermore, OCC plans to assess
                       investment portfolio activity.

                       Another significant risk noted on the April 2012 radar screen was
                       the fallout from weak mortgage underwriting from 2004 to 2006.
                       That is, the massive volumes of loan foreclosures, modifications,
                       and loss rates have caused operational issues in mortgage servicers
                       processing these loans, as well as an increase in credit costs. To
                       address this risk, and as a result of findings from a horizontal
                       review of major residential mortgage servicers, OCC issued consent
                       orders to the 14 largest mortgage servicers in April 2011. The
                       consent orders required the banks to, among other things; create
                       compliance programs to ensure that mortgage servicing and
                       foreclosure operations comply with all applicable legal requirements
                       and OCC supervisory guidance. OCC was monitoring compliance
                       with the consent orders and planned to test certain order
                       requirements during 2012 and 2013. As separate audits, we are
                       reviewing OCC’s monitoring of the consent orders and amended
                       consent orders. 19

17
   It should be noted that OCC identified the risk of exotic instruments before the May 2012 disclosure
by JPMorgan Chase of its losses associated with certain hedging activities. We initiated an audit of
OCC’s supervision of national bank trading activities with a focus initially on its supervision of
JPMorgan Chase.
18
   According to OCC, after we completed our fieldwork, strategic risks associated with banks’ entry into
new business products generally posed the greatest risk to banks’ safety and soundness.
19
   In January 2013, OCC negotiated a change to the terms of the April 2011 consent orders with 10 of
the 12 servicers under OCC supervision. OCC issued amended consent orders for these servicers in
February 2013.


                       OCC Identification of Emerging Risks (OIG-13-037)                        Page 12
           Losses associated with CRE lending continued to be on NRC’s
           supervisory risk radar screen as of April 2012 although the risk
           was assessed at a lower level than it had been. To address the
           continued risk, OCC updated its handbook on concentrations of
           credit as of December 2011. Also, in July 2012, OCC issued
           interagency supervisory guidance on stress testing for banks with
           more than $10 billion in total consolidated assets. The guidance,
           which became effective in July 2012, highlights the importance of
           stress testing as an ongoing risk management practice that
           supports a bank’s forward-looking assessment of its risks. Finally,
           in October 2012, OCC developed a portfolio level stress-testing
           tool for income producing CRE and guidance on stress testing for
           examiners and community bankers.

Recommendations

           We recommend that the Comptroller of the Currency:

           1. Periodically assess the effectiveness of the September 2011
              guidance to ensure, among other things, examination staff are
              assigning CAMELS management component ratings based on
              actions and results, rather than commitments, and that adverse
              ratings are appropriately assigned for poor or missing practices
              identified in examinations.

               Management Response

               OCC agreed and will periodically assess the effectiveness of the
               SM 2011-5 guidance to ensure, among other things,
               examination staff are assigning CAMELS management
               component ratings based on actions and results, rather than
               commitments, and that adverse ratings are appropriately
               assigned for poor or missing practices identified in
               examinations.

               OCC will also add explicit statements to its quality assurance
               conclusion memos that specifically address whether
               examination staff are adhering to the guidance provided in
               SM 2011-5, and are assigning CAMELS management
               component ratings based on actions and results, rather than


           OCC Identification of Emerging Risks (OIG-13-037)              Page 13
                            commitments, and whether adverse ratings are appropriately
                            assigned for poor or missing practices identified in
                            examinations. Currently these steps are taken, however not
                            explicitly stated in their conclusion memos. In addition, OCC will
                            continue to discuss key messages from SM 2011-5 and the
                            Midsize and Community Bank Supervision (MCBS) MRA
                            Reference Guide with staff.

                            OIG Comment

                            OCC’s corrective actions are responsive to our
                            recommendation.

                        2. Ensure that banks and examiners are responding appropriately
                           to risks identified including, but not limited to over-reliance on
                           fees and exotic instruments, as well as risks that are identified
                           in the future.

                            Management Response

                            OCC agreed with this recommendation and will ensure that
                            identified risks continue to be addressed in the individual
                            supervisory strategy for each institution through their quality
                            control and quality assurance processes. OCC will continue to
                            refine its ability to use data obtained from the Consolidated
                            Reports of Condition and Income 20 to ensure risks such as over-
                            reliance on fee income are being identified and are receiving
                            appropriate supervisory attention.

                            OIG Comment

                            OCC’s corrective actions are responsive to our
                            recommendation.




20
   Auditor note: A quarterly report of income and financial condition that banks file with their regulatory
agency. The contents of this report include consolidated detailed financial information on assets,
liabilities, capital, and loans to executive officers, as well as income, expenses, and changes in capital
accounts.


                        OCC Identification of Emerging Risks (OIG-13-037)                           Page 14
                               * * * * *

We appreciate the courtesies and cooperation provided to our staff
during the audit. If you wish to discuss the report, you may
contact me at (202) 927-0384 or Theresa Cameron, Audit
Manager, at (202) 927-1011. Major contributors to this report are
listed in appendix 3.




Jeffrey Dye /s/
Director, Banking Audits




OCC Identification of Emerging Risks (OIG-13-037)           Page 15
Appendix 1
Objectives, Scope, and Methodology




Our objective was to determine the Office of the Comptroller of the
Currency’s (OCC) processes in place to identify emerging risks to
financial institutions’ safety and soundness and translate the risks
identified into action.

To accomplish these objectives, we performed the following
activities.

•   Interviewed OCC officials and personnel working on committees
    or other groups whose goal is to identify emerging risks.
•   Collected and reviewed OCC documents produced by these
    committees or groups, such as risk radar screens, supervisory
    strategy guidance documents, OCC bulletins, and the results of
    OCC studies.
•   Analyzed causes of failure of OCC regulated institutions from
    2008 to May 2012, and compared to causes identified by OCC
    of bank failures during the 1980’s and 1990’s.

We performed our audit fieldwork from October 2010 through
May 2012.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




OCC Identification of Emerging Risks (OIG-13-037)             Page 16
Appendix 2
Management Comments




OCC Identification of Emerging Risks (OIG-13-037)   Page 17
Appendix 2
Management Comments




OCC Identification of Emerging Risks (OIG-13-037)   Page 18
Appendix 3
Major Contributors to This Report




Theresa Cameron, Audit Manager
Adelia Gonzales, Auditor
Carolyn Peyton, Program Analyst
Jason Madden, Referencer
John Gauthier, Referencer




OCC Identification of Emerging Risks (OIG-13-037)   Page 19
Appendix 4
Report Distribution




Department of the Treasury

    Deputy Secretary
    Office of Strategic Planning and Performance Management
    Office of the Deputy Chief Financial Officer, Risk and Control
       Group

Office of the Comptroller of the Currency

    Comptroller of the Currency
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner




OCC Identification of Emerging Risks (OIG-13-037)              Page 20
